D
                                                                         EMPLOYEE BENEFITS SECURITY

U.S. Department of Labor
R
A
F                                                                        ADMINISTRATION
T




                           Office of Inspector General—Office of Audit




                                                                         EBSA COULD IMPROVE ITS USAGE OF FORM
                                                                         5500 DATA




                                                                                             Date Issued:     March 31, 2014
                                                                                          Report Number:    05-14-003-12-121
U.S. Department of Labor                                March 2014
Office of Inspector General
Office of Audit
                                                        EBSA COULD IMPROVE ITS USAGE OF FORM
                                                        5500 DATA

BRIEFLY…
                                                        WHAT OIG FOUND
Highlights of Report Number 05-14-003-12-121,
issued to the Assistant Secretary for Employee          The OIG found EBSA’s compliance activities
Benefits Security.                                      related to the Form 5500 generally ensured that
                                                        plan administrators met ERISA reporting
WHY READ THE REPORT                                     requirements. However, EBSA could improve its
                                                        compliance activities by supplementing its current
The goal of Title I of the Employee Retirement          targeting strategies with analysis of changing
Income Security Act of 1974 (ERISA) is to protect       violation patterns and could improve targeting of its
the interests of participants and their beneficiaries   investigative activities by increasing access to
in employee benefit plans. The Employee Benefits        certain data elements in the Form 5500. We were
Security Administration (EBSA) is responsible for       unable to determine if EBSA effectively addressed
administering ERISA, including the Form 5500            all requests for changes, as the Form 5500 change
reporting process. The Form 5500 Series is part of      process was not entirely transparent. Finally,
ERISA's overall reporting and disclosure                system improvements could be made to search
framework, intended to ensure that employee             functions available for external users.
benefit plans are operated and managed in
accordance with certain prescribed standards and        WHAT OIG RECOMMENDED
that participants and beneficiaries, as well as
regulators, are provided or have access to              The OIG recommended the Assistant Secretary for
sufficient information to protect the rights and        Employee Benefits Security: (1) Include deficiency
benefits of participants and beneficiaries.             trends identified by 5500 data as a component of a
                                                        multi-pronged approach to determining OCA’s
This report highlights changes EBSA needs to            case mix, (2) Determine which Form 5500 data
make to improve the 5500 reporting process to           items are not currently searchable and add
better protect plan participants and beneficiaries.     appropriate data fields to the Form 5500 to allow
                                                        mining of this data, (3) Maintain a log or other form
WHY OIG CONDUCTED THE AUDIT                             for tracking change proposals for the Form 5500,
                                                        along with their ultimate disposition, (4) Improve
In response to concerns about the effectiveness of      EFAST 2’s public search function by making
the form 5500 reporting process, the OIG                searches more user-friendly and by building logic
conducted a performance audit of EBSA’s                 into the search algorithms.
administration of the Form 5500 to determine if
EBSA is effectively overseeing the process.             In response, EBSA generally agreed to incorporate
                                                        trend analyses into its targeting strategies, and to
READ THE FULL REPORT                                    consider available options for addressing
                                                        limitations in imaged submissions of financial
To view the report, including the scope,                documents, as part of the "21st Century Initiative.”
methodologies, and full agency response, go to:         EBSA also agreed to consider steps to generate
                                                        more standardized documentation of decisions on
http://www.oig.dol.gov/public/reports/oa/2014/05­       form change proposals. EBSA explained work is
14-003-12-121.pdf                                       underway to improve Form 5500 search
                                                        capabilities of the EFAST2 portal. Once EBSA
                                                        completes internal testing, it will make
                                                        enhancements available to the public.
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500 

                                   Report No. 05-14-003-12-121

                                                        U.S. Department of Labor – Office of Inspector General



Table of Contents


Inspector General’s Report .......................................................................................... 1


Background ................................................................................................................... 2


Results ........................................................................................................................... 3


Objective 1 — To what extent are EBSA’s compliance activities ensuring that plan

administrators meet ERISA reporting requirements?................................................ 4

          Although EBSA’s compliance activities generally ensured compliance,

              improvements could be made. ........................................................................ 4


Objective 2 — To what extent does EBSA use Form 5500 data in its enforcement

activities?....................................................................................................................... 6

          EBSA used Form 5500 data in its enforcement activities. However, not all
            important data elements are readily accessible. ...............................................

Objective 3 — Does EBSA effectively evaluate and address requests for changes 

to the Form 5500 content and instructions?............................................................... 7

          EBSA’s handling of the change process was difficult to evaluate because 

            the process lacked transparency..................................................................... 7


Objective 4 — How accessible is data collected on the Form 5500 to external

users? ............................................................................................................................ 8

          Some Form 5500 data was not readily accessible. ................................................


Recommendations ........................................................................................................ 9


EBSA's Response ......................................................................................................... 9


Appendices
          Appendix A Objectives, Scope, Methodology, and Criteria ................................ 13

          Appendix B Acronyms and Abbreviations........................................................... 15

          Appendix C EBSA's Response to Draft Report .................................................. 17

          Appendix D Acknowledgements ......................................................................... 21





                                                                                                       EBSA Form 5500
                                                                                            Report No. 05-14-003-12-121
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500 

                                   Report No. 05-14-003-12-121

                                      U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


March 31, 2014


                              Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue NW
Washington, D.C. 20210

The Employee Retirement Income Security Act of 1974 (ERISA) outlines responsibilities
for the U.S. Department of Labor (DOL), the Internal Revenue Service of the
Department of the Treasury (IRS), and the Pension Benefit Guaranty Corporation
(PBGC). DOL, IRS, and the PBGC developed the Form 5500 Series so employee
benefit plans could satisfy annual reporting requirements under ERISA and the Internal
Revenue Code.

The Form 5500 Series is part of ERISA's overall reporting and disclosure framework,
which is intended to assure that employee benefit plans are operated and managed in
accordance with certain prescribed standards and that participants, beneficiaries, and
regulators are provided or have access to sufficient information to protect the rights and
benefits of participants and beneficiaries under employee benefit plans. The Employee
Benefits Security Administration (EBSA) is responsible for administering ERISA, and
consequently, the Form 5500 reporting process.

To respond to concerns about the effectiveness of the Form 5500 reporting process, we
conducted a performance audit of EBSA’s administration of the Form 5500 for Plan
Years (PY) 2009-2011 and of requests for changes to the form during Fiscal Years
(FY) 2010-2012 to answer the following questions:

Is EBSA effectively overseeing the Form 5500 reporting process? Specifically:

   1. To what extent are EBSA’s compliance activities ensuring that plan

      administrators meet ERISA reporting requirements?


   2. To what extent does EBSA use Form 5500 data in its investigative activities?

   3. Does EBSA effectively evaluate and address requests for changes to the Form
      5500 content and instructions?

   4. How accessible is data collected on the Form 5500 to external users?

                                                                                  EBSA Form 5500
                                             1                         Report No. 05-14-003-12-121
                                       U.S. Department of Labor – Office of Inspector General


Background

The Employee Retirement Income Security Act of 1974 was the culmination of a long
line of legislation concerned with the labor and tax aspects of employee benefit plans.
Since its enactment, ERISA has been amended to meet the changing retirement and
health care needs of employees and their families.

The administration of ERISA is divided among DOL (via EBSA), IRS, and PBGC. Title I,
which contains rules for reporting and disclosure, vesting, participation, funding,
fiduciary conduct, and civil enforcement, is administered by DOL. Title II of ERISA,
which amended the Internal Revenue Code to parallel many of the Title I rules, is
administered by the IRS. Title III is concerned with jurisdictional matters and with
coordination of enforcement and regulatory activities by DOL and the IRS. Title IV
covers the insurance of defined benefit pension plans and is administered by the PBGC.

The goal of Title I of ERISA is to protect the interests of participants and their
beneficiaries in employee benefit plans. Among other things, ERISA requires that
sponsors of private employee benefit plans provide participants and beneficiaries with
adequate information regarding their plans. Also, those individuals who manage plans
(and other fiduciaries) must meet certain standards of conduct, derived from the
common law of trusts and made applicable (with certain modifications) to all fiduciaries.
The law also contains detailed provisions for reporting to the government and disclosure
to participants. Furthermore, there are civil enforcement provisions aimed at assuring
that plan funds are protected and that participants who qualify receive their benefits.

DOL, IRS, and PBGC jointly developed the Form 5500 Series so employee benefit
plans could utilize it to satisfy annual reporting requirements under Title I and Title IV of
ERISA and under the Internal Revenue Code. The Form 5500 Series is an important
compliance, research, and disclosure tool for DOL, a disclosure document for plan
participants and beneficiaries, and a source of information and data for use by other
federal agencies, Congress, and the private sector in assessing employee benefit, tax,
and economic trends and policies. The Form 5500 Series is part of ERISA's overall
reporting and disclosure framework, which is intended to assure that employee benefit
plans are operated and managed in accordance with certain prescribed standards and
that participants and beneficiaries, as well as regulators, are provided or have access to
sufficient information to protect the rights and benefits of participants and beneficiaries
under employee benefit plans.

The Form 5500 is the primary source of information for both the federal government and
the private sector regarding the operation, funding, assets, and investments of private
pension and other employee benefit plans. The information is stored in the ERISA Filing
Acceptance System II (EFAST2). EFAST2, an all-electronic system, receives and
displays Forms 5500 and 5500-Short Form (SF) Annual Returns/Report and is available
on www.efast.dol.gov. Effective January 1, 2010, all Form 5500 Annual Returns/Reports
of Employee Benefit Plan and all Form 5500-SF Annual Returns/Reports of small
Employee Benefit Plan and any required schedules and attachments must be
completed and filed electronically.

                                                                           EBSA Form 5500
                                              2                 Report No. 05-14-003-12-121
                                      U.S. Department of Labor – Office of Inspector General



To answer our audit objectives, and to respond to concerns about the effectiveness of
the Form 5500 reporting process, we only focused on the operations related to
Form 5500 in EBSA’s Office of the Chief Accountant (OCA), Office of Enforcement
(OE), and Office of Regulations and Interpretations (ORI).

OCA enforces reporting requirements for plans and is comprised of three divisions:
Division of Accounting Services (DAS), Division of Federal Employees’ Retirement
Income Security Act of 1986 Compliance (FERSA), and the Division of Reporting and
Compliance (DRC). We audited DRC, which is responsible for ensuring the ERISA data
base contains timely, complete, and accurate information about the regulated plan
community. OCA enforced compliance by targeting deficient Form 5500 filings and
initiating cases against plan administrators to correct filling deficiencies.

OE promotes the protection of pension and welfare benefits under ERISA by ensuring a
strong and effective national and field office enforcement program through: (1) policy
formulation; (2) project identification and program planning; (3) guidance development
and implementation; (4) field liaison; (5) field and project evaluation; and (6)
investigations to detect and correct violations of Title I of ERISA and related criminal
laws. In our audit, we focused on OE investigative activities, which consist of opening
cases against plan administrators to detect and correct violations of Title I of ERISA and
related criminal laws. These cases cover both national and regional enforcement
priorities and OE used a variety of sources, including data derived from Form 5500
filings, to identify plans with potential ERISA violations.

In short, OCA and OE perform two different functions. OCA performs activities intended
to ensure compliance with filing requirements, and OE investigates potential violations
of ERISA.

ORI is primarily responsible for carrying out EBSA’s regulatory agenda and interpretive
activities. ORI also plays a major role in the development, analysis, and implementation
of pension and health care policy issues by providing technical assistance and support
to the Assistant Secretary, external groups, and other offices within EBSA. In addition,
ORI coordinates regulatory and interpretive activities with other federal agencies, such
as the IRS and the PBGC.

Results

Overall, we found that while EBSA’s compliance activities related to the Form 5500
generally ensured plan administrators met ERISA reporting requirements, OCA could
improve its compliance activities by supplementing its current targeting strategies with
analysis of changing violation patterns, and OE could improve targeting of its
investigative activities with improved access to certain data elements in the 5500. We
were unable to determine whether EBSA effectively addressed all requests for changes,
as the Form 5500 change process was not entirely transparent. Finally, improvements
could be made to access and searches performed by external users.



                                                                          EBSA Form 5500
                                            3                  Report No. 05-14-003-12-121
                                     U.S. Department of Labor – Office of Inspector General


Objective 1 — To what extent are EBSA’s compliance activities ensuring that plan
              administrators meet ERISA reporting requirements?

      Although EBSA’s compliance activities generally ensured compliance,
      improvements could be made.

ERISA requires pension and welfare plan administrators to file an annual return/report,
which can be satisfied by filing the Form 5500. The form is the primary source of
information about the operations, funding, and investments of approximately 800,000
retirement and welfare benefit plans and discloses, among other things, the financial
condition and operations of their plan. OCA has established numerous programs aimed
at protecting participants of pension and welfare plans by enforcing ERISA’s
requirements for timely and accurate reporting.

OCA sought to ensure plan administrators met ERISA reporting requirements by
reviewing Form 5500 filings on the ERISA database for timeliness, completeness, and
accuracy. OCA’s three-pronged compliance program consisted of educational outreach,
technical assistance via a help desk function, and an enforcement program, which
targeted deficient Form 5500 filings and initiated cases against plan administrators to
correct deficiencies. OCA allocates resources to various compliance efforts based on its
annual business plan.

While its compliance activities mostly ensured plan administrators met their reporting
requirements, we found OCA’s enforcement program did not allocate resources to
reflect broad proportion to non-compliance trends. This occurred because OCA did not
routinely analyze case results and develop trends of non-compliance to inform the types
of deficiencies it targeted.

OCA reviews about 4,000 filings each year and chooses the mix of cases (a filing that is
reviewed by OCA is a “case”) based on a variety of factors, such as data analytics and
priorities set by its annual business plan. Based on an analysis of typical deficiencies
prepared by OCA for PYs 2009 - 2011, we found the types of deficiencies varied widely
over time. The table below illustrates the contrast between the estimated occurrence
rates of various types of deficiencies and the mix of cases opened by OCA. We also
reviewed a randomly selected sample of 171 enforcement cases drawn from
PYs 2009- 2011 (see OCA Case Mix columns in the following table) to identify the types
of deficiencies noted by OCA.




                                                                         EBSA Form 5500
                                           4                  Report No. 05-14-003-12-121
                                                  U.S. Department of Labor – Office of Inspector General



Deficiency Rate and Case Mix Table


                               Estimated            OCA       Estimated           OCA      Estimated         OCA
                               Deficiency           Case      Deficiency          Case     Deficiency        Case
                                     Rate            Mix            Rate           Mix           Rate         Mix
    Type of Deficiency              2009            2009           2010           2010          2011         2011
    Errors & Missing
                                     62%             16%            55%             0%           24%           0%
    Signatures
    Missing IQPA Report                5%            40%             5%            54%             9%         50%
    Missing Schedule C                 7%            10%             7%            16%             7%         10%
    Missing Schedule H & I             2%              6%            1%             1%             2%          0%
    Late Filings                     24%               6%           32%            14%           58%          20%
            1
    Other                                            22%                           15%                        20%
    Total                           100%            100%           100%           100%          100%         100%


When we compared OCA’s case mix to trends in deficiencies found in Form 5500
filings, we found two things. First, OCA’s case mix was not informed by annual
deficiency rates when it should have generally reflected the current environment. For
example, if statistics indicated that many forms were being filed without including an
Independent Qualified Public Accountants (IQPA) report, OCA should have devoted
more resources to targeting plans that were filing without IQPA reports. Moreover, OCA
should probably have increased outreach and education efforts aimed at better
informing the Form 5500 community about the need to include an IQPA report with
every filing. To illustrate this point, in PY 2009, IQPA reports were missing in only
5 percent of filings that had deficiencies, 2 but in OCA’s case mix, missing IQPA cases
represented 40 percent of total cases. In PY 2011, IQPA reports were missing in only
about 9 percent of filings that had errors, but OCA’s case mix resulted in 50 percent of
cases targeting missing IQPA reports. These statistics indicate that OCA was allocating
far more resources to the missing IQPA issue. Second, the fact that OCA’s case mix did
not appear to follow changing deficiency trends indicates that OCA was not using trend
data to influence its allocation of resources. In PY 2009, “errors and missing signatures”
were present in 62 percent of the filing population at issue (see footnote 2). By PY 2011,
only 24 percent of filings demonstrated this issue, a reduction of 61 percent. By
contrast, OCA’s case mix over the same period reflected a reduction of 100 percent.

As a result, EBSA may not be focusing its efforts to best utilize limited resources to
identify poor plan management and protect participants. Although a perfect alignment of
resources and deficiency trends is not practical, we would expect to see a periodic
adjustment of enforcement priorities influenced by changing non-compliance trends.


1
  Represented non-typical deficiencies not captured in the analysis, i.e. such as Short Form Eligibility, IRS

certification, etc.

2
  “Filings with deficiencies” denotes initial Form 5500 which were flagged by the system as possibly having some type 

of error or violation.


                                                                                            EBSA Form 5500
                                                          5                      Report No. 05-14-003-12-121
                                                  U.S. Department of Labor – Office of Inspector General



Objective 2 — To what extent does EBSA use Form 5500 data in its enforcement
              activities?

         EBSA used Form 5500 data in its enforcement activities. However, not all
         important data elements are readily accessible.

The Form 5500 as a Source of Enforcement Targets

EBSA used Form 5500 data to target plans for investigation; however, improved access
to certain data elements could improve its targeting efforts.

OE is responsible for conducting investigative activities to detect and correct violations
of Title I of ERISA and related criminal laws. EBSA has established five national
enforcement projects, each representing issues of national importance. EBSA’s regional
offices assessed current enforcement activities, trends, and areas of noncompliance
within the region to identify regional enforcement projects informed by the national
guidance. OE used a variety of sources to target its investigations, among them
information it gained from Form 5500 filings. We found approximately one-third of the
investigation cases opened during FYs 2010-2012 were sourced from Form 5500 filing
data. As a result, we concluded that Form 5500 data is a major source for detecting
potential ERISA violations in EBSA’s investigative program. However, a prior OIG audit
report 3 found that the notes to financial statements, which include significant information
about plan investments, cannot be queried in an automated way.

In addition to the Form 5500, other sources of the information to open cases included
referrals, leads, and spin-offs from other cases. Based on our review of cases opened
by a sample of four EBSA regions during FY 2010-2012, we determined the use of
Form 5500 data varied by region and by year.

As noted in the prior OIG report, in order to search for information included in the
financial statements and notes attached to the Form 5500, users have to download a
PDF attachment and manually review the information. The system has no ability to read
the PDF attachment and convert the information to an element that can be queried. For
example, certain plans have to report level 1 through 3 investments4 on their financial
statements. In order to determine which investments qualify as levels 2 and 3 – an
important source of enforcement information – investigators would have to manually
open and read the financial statements attached to each Form 5500 and then manually
tabulate the amounts contained in the notes to the financial statements. This may
hamper EBSA’s ability to fully mine the database in an automated fashion. EBSA should
determine which information reported in the notes to plan financial statements are of
highest value and add appropriate data elements to the Form 5500.


3
  Report No. 09-13-001-12-121 - “EBSA Needs to Provide Additional Oversight to ERISA Plans Holding Hard –To

Value Alternative Investments,” issued September 30, 2013.

4
  Financial Accounting Standards Board’s framework for measuring fair value, and provides a fair value hierarchy for

ranking investments into three levels, level 1 being the most easily valued and level 3 being the most difficult.


                                                                                            EBSA Form 5500
                                                          6                      Report No. 05-14-003-12-121
                                                U.S. Department of Labor – Office of Inspector General


Objective 3 — Does EBSA effectively evaluate and address requests for changes
              to the Form 5500 content and instructions?

          EBSA’s handling of the change process was difficult to evaluate because
          the process lacked transparency.

The administration of ERISA is divided among DOL, IRS, and PBGC. A working group
composed of these agencies was established to facilitate the process of making form
and instruction changes to the Form 5500 Series. Each agency has its own legal
authorities and responsibilities over Form 5500 reporting and has an equal opportunity
to submit proposals for changes. DOL, through EBSA, coordinates regulatory and
interpretive activities with other federal agencies. EBSA works with the IRS and PBGC
and takes the lead for change proposals involving the Form 5500.

The major factors the working group considers when making changes to the Form 5500
are: (1) a substantive need for change; (2) impact on DOL’s Electronic Filing
Acceptance System II (EFAST2) and potential costs related to changes; and (3) time
and effort for the individual agency to obtain required OMB approvals, which are
different for each of the three agencies, depending on the nature of the change.

The working group uses an informal approach to documenting its decision-making
process for change proposals. The group does not maintain a log of current proposals,
their current status, and final disposition, which would be a key accountability tool.
Changes to the Form 5500 can be likened to a project. As defined by the Project
Management Institute, a project is a temporary group activity designed to produce a
unique product, service, or result. 5 Tools such as a change log can be useful in order to
properly monitor and control the processes involved in a project. This key accountability
tool would capture the nature of the change requested and then continue to provide a
chronological listing of actions undertaken, personnel involved, and potentially many
more details depending on the needs of the project team.

During FY2010-2012, 13 changes were proposed and 7 were adopted. The changes
made during FYs 2010-2012 were minor or changes pursuant to new laws and did not
incur any additional costs. We requested documentation supporting the evaluations of
the 6 proposals that were not adopted to understand the basis of EBSA’s decisions.
EBSA stated it did not maintain a record of its evaluations and justifications when the
proposals were not adopted. EBSA provided a large number of emails representing
discussions within the group as support for its deliberations. These emails, however, did
not adequately demonstrate EBSA’s evaluation or clearly justify its decisions for not
adopting the change requests. As a result, we were unable to determine if EBSA
adequately evaluated and addressed change proposals that fell under its jurisdiction.




5
    http://www.pmi.org/About-Us/About-Us-What-is-Project-Management.aspx

                                                                                      EBSA Form 5500
                                                       7                   Report No. 05-14-003-12-121
                                      U.S. Department of Labor – Office of Inspector General



Objective 4 — How accessible is data collected on the Form 5500 to external
              users?

      Some Form 5500 data was not readily accessible.

EBSA provides online public access to filing data and information through its EFAST2
portal, which was designed to allow public and authorized government users to query,
view, download, and print public portions of filings. Based on our review of the system’s
search abilities, we determined the search function worked best for well-informed users.
Searches in which users did not have complete company or plan information were less
successful.

Search Functionality Could Be Improved

Based on our review of the system’s search abilities, we determined the search function
worked best for well-informed users. For example, the search easily retrieved data
when the user entered the plan’s Federal Employer Identification Number (FEIN) or
spelled the name of the plan exactly as noted on plan documents. However, there were
instances when the system would not locate a plan filing when incomplete company or
plan information was used. For example, we were unable to retrieve plan documents
using short acronyms because the search engine required a minimum of four characters
to perform a search. The search tool did not incorporate commonly used search
features. For example, the system searched for all characters typed by the user and did
not remove extra spaces when searching for the plan.

Finally, the system did not appear to search for terms entered in a variety of
combinations. For example, the search term “International Business Inc.” returned no
results, even though those three terms appear in many filings on the website, as we
determined by searching for the words “International Business.” By contrast, internet
search engines generally return results for searches that include any of the words
searched.

Although EBSA provided a 42 page manual to help guide users through the search
process, only 3 of those pages are devoted to entering search terms and they consist
only of screen shots and information that does not provide useful guidance on how to
conduct searches beyond what is already apparent on the screen. As a result of these
limitations, plan participants may find it challenging to retrieve plan documents by
performing moderately-informed casual searches. EBSA has a telephone customer
service line to assist users. However, improving the search engine would assist many
more users.

EBSA is currently in the early stages of its “21st Century Initiative,” which consists of
streamlining the Form 5500 reporting process, including possible architectural and data
element changes to the Form 5500 Series and streamlining the tri-agency process for
periodic changes to the form.


                                                                          EBSA Form 5500
                                            8                  Report No. 05-14-003-12-121
                                     U.S. Department of Labor – Office of Inspector General



Recommendations

We recommend the Assistant Secretary for Employee Benefits Security:

   1. Include deficiency trends identified by 5500 data as a component of a 

      multi-pronged approach to determining OCA’s case mix.

   2. Determine which Form 5500 data items are not currently searchable and add
      appropriate data fields to the Form 5500 to allow mining of this data.
   3. Maintain a log or other form for tracking change proposals for the Form 5500,
      along with their ultimate disposition.
   4. Improve EFAST 2’s public search function by making searches more user-

      friendly and by building logic into the search algorithms.


EBSA’S Response

In response, the Assistant Secretary for Employee Benefits Security generally agreed
with the audit results. EBSA stated now that several years of EFAST2 data are
available, OCA is in a better position to incorporate trend analyses into its targeting
strategies. EBSA also agreed there are limitations inherent in image submissions of
financial statements as part of the Form 5500 package, and that available options for
this problem are being studied as part of the “21st Century Initiative.” EBSA also agreed
to consider steps that would generate more standardized documentation of decisions on
EBSA’s form change proposals, but disagreed that they take the lead for change
proposals involving the Form 5500. In regard to search limitations, EBSA is fully aware
of the limited Form 5500 search capabilities of the EFAST2 portal, has been working to
improve these capabilities, and will make enhancements available to the public once
internal testing is completed.

EBSA generally concurs with OIG’s recommendations, and as a result, we made no
changes to the recommendations.

We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                                         EBSA Form 5500
                                           9                  Report No. 05-14-003-12-121
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500

               10                  Report No. 05-14-003-12-121

              U.S. Department of Labor – Office of Inspector General




Appendices





                                                  EBSA Form 5500

                   11                  Report No. 05-14-003-12-121

          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500

               12                  Report No. 05-14-003-12-121

                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix A
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions

Is EBSA effectively overseeing the Form 5500 reporting process?

   1. To what extent are EBSA’s compliance activities ensuring that plan

      administrators meet ERISA reporting requirements?


   2. To what extent does EBSA use Form 5500 data in its investigative activities?

   3. Does EBSA effectively evaluate and address requests for changes to the Form
      5500 content and instructions?

   4. How accessible is data collected on the Form 5500 to external users?

Scope

The scope of the audit covered Form 5500s submitted for PYs 2009-2011 and
requested form changes during FYs 2010- 2012

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

We only focused on the operations related to Form 5500 in OCA, OE, and ORI.

For OCA, we reviewed its FYs 2010-2012 Business Plans and compliance cases. We
also interviewed key OCA staff, reviewed the EFAST Edit Test Manual, and retrieved
Form 5500 filings from the EFAST website.

We interviewed staff to determine how the Form 5500 was used in EBSA’s enforcement
program and activities. We analyzed Program Operating Plans to determine if national
and regional projects changed from year to year. We analyzed four sampled regions to
determine the number of cases opened during the period FYs 2010–2012. For ORI, we
interviewed officials from ORI, IRS, and PBGC to obtain an understanding of the
process followed by the tri-agency working group relative to the proposals for changes
to the Form 5500. We reviewed ORI’s procedures and protocols to understand the

                                                                         EBSA Form 5500
                                          13                  Report No. 05-14-003-12-121
                                     U.S. Department of Labor – Office of Inspector General


rulemaking process and requested from ORI all proposals submitted for changes during
FYs 2010-2012. We also requested a list of proposals and associated documentation
from IRS and PBGC to determine if ORI performed analyses of information gained from
stakeholders.

We also performed searches for Form 5500 filings on EFAST2 to determine the
accessibility of Form 5500 data to plan participants.

In planning and performing our audit, we considered EBSA’s internal controls that were
relevant to our audit objectives. We confirmed our understanding of these controls
through interviews and through obtaining and reviewing studies, policies, procedures,
and enforcement actions. Our consideration of internal controls relevant to our audit
objective would not necessarily disclose all matters that might be significant
deficiencies. Because of inherent limitations in internal controls, misstatements or
noncompliance may nevertheless occur and not be detected.

Criteria

•	   Employee Retirement and Security Act of 1974
•	   OMB A-123 Management's Responsibility for Internal Control
•	   GAO Standards for Internal Controls
•	   Department of Labor Manual Series 1 Chapter 400 – DOL Records Management
     Program




                                                                         EBSA Form 5500
                                          14                  Report No. 05-14-003-12-121
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix B
Acronyms and Abbreviations

 AICPA         American Institute of Certified Public Accountants

 DOL           Department of Labor

 EBSA          Employee Benefits Security Administration

 EDS           ERISA Data Systems

 EFAST2        Electronic Filing Acceptance System II

 ERISA         Employee Retirement Income Security Act of 1974

 FERSA         EBSA’s Division of Federal Employees Retirement Income Security

 FY            Fiscal Year

 GAO           Government Accountability Office

 IQPA          Independent Qualified Public Accountant

 IRS           Internal Revenue Service

 OCA           EBSA’s Office of Chief Accountant

 OE            EBSA’s Office of Enforcement

 OIG           Office of Inspector General

 OMB           Office of Management and Budget

 ORI           EBSA’s Office of Regulations and Interpretations

 PBGC          Pension Benefit Guaranty Corporation

 PY            Plan Year




                                                                      EBSA Form 5500
                                       15                  Report No. 05-14-003-12-121
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500

               16                  Report No. 05-14-003-12-121

                                                  U.S. Department of Labor – Office of Inspector General


                                                                                                          Appendix C
EBSA's Response to Draft Report




    U.S. Department of Labor                  Assistant Secretary for
                                              Employee Benefits Security Administration
                                              Washington, D.C. 20210




      DATE:    MAR 2 6 2Dg
      MEMORANDUM FOR:                ELLIOT P. LEWIS
                                     Assistant Inspector General for Audit

      FROM:                          PHYLLIS C. BORZI         ~JlttlA4.1r~ ~
                                     Assistant Secretary oftabor forEmployee Benefits
                                     Security

      SUBJECT:                       EBSA Response to OIG Performance Audit
                                     Report No. 05-14-003-12-121


      This will respond to the recommendations in your March, 2014 draft audit report regarding the
      Employee Benefits Security Administration's (EBSA) Form 5500 and whether EBSA is effectively
      overseeing the Form 5500 reporting process.

      OIG's RECOMMENDATIONS

      Recommendation 1: Include deficiency trends identified by 5500 data as a component of a multi­
      pronged approach to determining OCA's case mix.

      We agree with this recommendation. Now that several years ofEFAST2 data are available, the Office
      of the Chief Accountant (OCA) is in a better position to incorporate trend analyses into its targeting
      strategies and program performance assessments. However, while we recognize that trends are
      important, our targeting must primarily be risk-based and thus weighted toward the degree of potential
      loss to plan participants and beneficiaries. For example, audits of plans performed by independent
      qualified public accountants (IQPA) are one ofERISA's principal requirements that protect the assets
      and financial integrity of employee benefit plans. 1 Our case selections have focused on plans that
      failed to have compliant and timely audits because these plans risk not detecting or revealing: 1) assets
      that were not properly accounted for, 2) past-due contributions still owing from the employers, and 3)
      fiduciary violations such as misappropriation of plan assets.




      1
       CHANGES ARE STILL NEEDED IN THE ERISA AUDIT PROCESS TO INCREASE PROTECTIONS FOR
      EMPLOYEE BENEFIT PLAN PARTICiPANTS; September28, 2012; OIG Report Number: 09-12-002-12-121

      EBSA NEEDS TO PROVIDE ADDITIONAL GUIDANCE AND OVERSIGHT TO ERISA PLANS HOLDING HARD­
      TO-VALUE ALTERNATIVE INVESTMENTS; September 30, 2013; OIG Report Number: 09- I3-00 1-12-121
                                                          1




                                                                                                     EBSA Form 5500
                                                          17                              Report No. 05-14-003-12-121
                                           U.S. Department of Labor – Office of Inspector General




Starting in 2013, OCA analyzes the ERISA database monthly for developing pattems of critical
reporting violations. This enables OCA to quickly adjust it5 enforcement initiatives as necessary.
OCA recognizes the benefits of using trend analyses as one of several tools to ensure the level of
compliance with ERISA's repmting rules and regulations and will consider trends as a part of its
annual planning of enforcement, outreach, and voluntary compliance strategies. OCA also leverages
EFAST2's automated edit check processes, multiple education and outreach programs, a robust
voluntary compliance program, and the resources of other Federal agencies as strategies to improve
compliance with ERISA' s reporting and disclosure rules.

Recommendation 2: Determine which .Fo1·m 5500 data items are not currently searchable and
add appropriate data fields to the Form 5500 to allow mining ofthis data.

We agree with this recommendation. EBSA is aware of the limitations inherent in image submissions
of financial statements as part of the Form 5500 package. We note that all images submitted with the
Form 5500 are currently subjected to Optical Character Recognition (OCR) processes. These
processes allow some search capabilities, but OCR accuracy is highly dependent on the quality of the
submitted image (which EBSA cannot control). Available options for this problem are being studied
as part of the "21st Century Initiative" to improve the Form 5500 and the reporting process.

Recommendation 3: Maintain a Jog or other form for tracking change proposals for the Form
5500, along with their ultimate disposition. Improve EJ<'AST 2's public search function by
malting searches more user-friendly and by building logic into the search algorithms.

We appreciate the OIG's interest in identifying ways to improve the Form 5500 change development
process, and we agree to consider steps that EBSA could implement that would generate more
standardized documentation of decisions on EBSA form change proposals. EBSA, Treasury/IRS, and
PBGC coordinate as appropriate on regulatory and interpretive activities related to the development
and publication of the Form 5500 in part because one of the principal goals behind developing and
maintaining the Form 5500 as a three-agency form is to minimize filer burden by avoiding duplicative
reporting requirements with the three agencies. EBSA does not, however, "take the lead for change
proposals involving the Form 5500," as stated by the OIG. Rather, each agency has an equal, but
distinct role in the annual forms development fi·om a regulatory/information collection perspective
based on the different legal, jurisdictional, enforcement, and budget considerations that affect what
changes each agency suggests, and how and when the changes might be implemented. Each agency
also does its own internal legal and policy review, and the Form 5500 working group does not have a
role beyond making recommendations in the agency's respective intemal decision-making on proposed
change items.

With regard to the time period of the OIG's audit, FYs 2010-2012, the OIG notes that 13 changes were
proposed, of which 7 were adopted and 6 were not, and expressed concem that EBSA did not maintain
a special log of its evaluations and j ustifications when the IRS and PBGC proposals were not adopted.
It is important to note that none of the 6 fonn changes that were the subject of the OIG report were
EBSA proposals. EBSA did not have the authority to decide what changes the IRS or PBGC would
pursue or to require the other agencies to provide to EBSA documentation of their intemal decision­
making processes. Nonetheless, we will share the OIG report and our response, including our
agreement to consider more standardized documentation ofEBSA decisions, with the IRS and PBGC.



                                                  2




                                                                                       EBSA Form 5500

                                                  18
                       Report No. 05-14-003-12-121
                                             U.S. Department of Labor – Office of Inspector General




EBSA is fully aware of the limited Form 5500 search capabilities ofthe EFAST2 portal. We have
been working to improve these capabilities and already developed an enhanced search application
which is in production for internal users. We intend to make these enhancements available to the
public once internal testing is completed. In addition to providing much superior search capabilities,
the new application wiH be faster and more intuitive. It will also include an on-line Help
facility. Among the new features are: 1) partial and full text searching of many more fields; 2) ability
to search in a given geographic range; and, 3) the ability to specify search criteria based on certain filer
characteristics. EBSA is now analyzing the best solutions for scaling-up the application for public
access.




                                                    3




                                                                                            EBSA Form 5500

                                                     19
                         Report No. 05-14-003-12-121
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                            EBSA Form 5500

             20                  Report No. 05-14-003-12-121

                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix D
Acknowledgements

Key contributors to this report were: Nicholas Christopher (Audit Director), Charmaine
Thorne (Audit Manager), Renata Hobbs, Steve Chiang, Angela Stewart, and Jennifer
Roberts.




                                                                         EBSA Form 5500
                                           21                 Report No. 05-14-003-12-121
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              EBSA Form 5500

               22                  Report No. 05-14-003-12-121

TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
